WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-1720

Joanne Taylor-Cotten District of Columbia Public Schools
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature.  |Caroline S. Van Zile Dae: 209100.29 13:08:08 0800

Date: 6/23/2021

(Type or print) Name | Caroline S. Van Zile

Mr. Ms. © Mrs. Miss
Firm Office of the Attorney General for the District of Columbia
Address 400 6th Street, NW, Suite 8100
City & State | |Washington, D.C. Zip |20001
Phone (202) 724-6609 Email |caroline.vanzile@dc.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Joanne Taylor-Cotten
cc:
